          U.S. DEPARTMENT OF THE INTERIOR
          Office of Inspector General

                     Interim Report




                 Indian Country
                Detention Facilities




Assessment No. X-EV-BIA-0114-2003       April 2004
Introduction
In September 2003, we began an assessment of Indian Country detention facilities. Our
focus is on whether the funds designated for Indian Country detention facilities were
properly expended and whether these facilities are safe and secure. Although this review
is scheduled for completion at the end of the summer of 2004, we are compelled to issue
an interim report on preliminary findings that are of great concern to us. This is not
intended to be a progress report of our review of detention facilities; rather, it is intended
to inform the Department of the deplorable conditions existing at some of the facilities
that may lead to life-threatening situations. This interim report discusses deaths, suicides,
attempted suicides, and escapes of inmates, as well as officer safety issues, at some of the
facilities we visited. In fact, we found over 30 deaths, suicides, attempted suicides, and
prisoner escapes that were either undocumented or not reported to the Bureau of Indian
Affairs’ (BIA) Office of Law Enforcement Services (OLES) detention program. We
believe it is imperative that BIA takes immediate action to alleviate potentially life-
threatening situations at its detention facilities.

Background
Under the Indian Law Enforcement Reform Act of 1990 (Public Law 101-379), BIA is
required to provide law enforcement services on reservations. In addition, under the
Indian Self-Determination Act (Public Law 96-638), BIA provides funding to tribes for
detention services. There are 74 detention facilities in Indian Country; 19 are operated by
BIA’s OLES, 46 receive BIA funding for detention services under Public Law 96-638,
and 9 are operated by tribes. Of the 74 facilities, 28 house adult inmates, 11 house
juveniles, and 35 house a combination of both adults and juveniles. Thus far, we have
visited 14 detention facilities: 5 were BIA-operated and 8 were contract facilities
(hereafter referred to as 638-contract facilities). The facilities we have visited to date are
primarily located in the southwestern region of the United States.

For many years the BIA detention program has been characterized as drastically
understaffed, under-funded, and poorly managed. BIA’s director of law enforcement has
oversight authority for BIA-operated and 638-contract detention facilities. The director
oversees these facilities through six district commanders. In addition, a program
detention manager is assigned to the director’s personal staff along with two detention
specialists. However, the detention program manager has neither line authority nor direct
responsibility for the detention facilities.

In most facilities, basic jail administration procedures are not followed and many
detention managers and their staff have not received professional, certified training in
detention procedures. In fact, BIA OLES officials admitted that none of their detention
facilities “come close” to meeting BIA’s standards for operation, which derive from
nationally recognized detention standards. BIA’s detention program is riddled with
problems and continues to be a national disgrace with many facilities having conditions
comparable to those found in third-world countries. Unfortunately, BIA appears to have
a “laissez-faire” attitude in regard to these horrific conditions at its detention facilities.


                                               1
Based on our visits, we are concerned that serious incidents are not always communicated
up the chain of command. Specifically, our review of the serious incident log kept by
OLES’ detention program and a similar log kept by BIA Internal Affairs revealed that
many of the incidents we identified were not on these logs.

While we have only visited 14 facilities, our anxiety is heightened by what we have
found and in anticipation of incidents that we have yet to discover. We can only assume
that similar incidents have occurred at other detention facilities. The following section
chronicles a few examples of the life-threatening situations we have identified to date.

Interim Findings
Our interim findings are based on our 14 site visits, dozens of interviews, and review of
hundreds of documents obtained from BIA’s OLES and at individual detention facilities.

Deaths and Suicides

We found that six deaths have occurred at six of the facilities visited. This number
includes the recent death of Cindy Gilbert, the 16-year old student who died while in a
detention cell at the Chemawa Indian School in Oregon. BIA operates the Boarding
School and its detention facility1, which was included on the “Inventory of Indian
Country Detention Facilities--2003” document that we received from OLES.

In March 2003, a 15-year-old female inmate hanged herself at the BIA-operated Zuni
Adult and Juvenile Detention Facility in New Mexico. According to the facility director,
correctional officers at the time were “off-line for approximately 30 minutes,” handling
other duties, and were not properly overseeing the cell population. BIA Internal Affairs
did investigate this incident.

In December 2003, at the BIA-operated Haulapai Detention Center in Arizona, an inmate
who was arrested for public intoxication was found hanging in an apparent suicide
attempt in his jail cell. Although the inmate was resuscitated, he died 6 days later in the
hospital. A preliminary investigation determined that the inmate had been transferred
from the intoxication cell to a single cell where the attempted suicide occurred. BIA and
the Federal Bureau of Investigation are still investigating this incident.

Since 2001, one suicide has occurred at the Shiprock Adult Detention Center, a 638-
contract facility, in Shiprock, New Mexico. An inmate was placed in the isolation cell
and left unobserved for 2 hours, during which time the inmate hanged himself.
According to the facility director, there are no written procedures for handling inmate
deaths.




1
  The school’s detention facility has four cells that are used to temporarily detain unruly or intoxicated
students.


                                                       2
A similar incident occurred in December 2003 at the San Carlos 638-contract facility,
when an inebriated inmate was placed in the intoxication cell and died of asphyxiation.

Similarly, at the BIA-operated Hopi Adult and Juvenile Facility in Arizona, an
intoxicated inmate died of asphyxiation in 2003. According to the Acting Lead
Correctional Officer, this occurred because the two officers on duty were “more
interested in cleaning up the office” than observing inmates.

Attempted Suicides

Thus far, it appears that suicide attempts are a regular occurrence at most of these
facilities. Often, these suicide attempts are made repeatedly by a single individual. A
review of the incident log at the BIA-operated Mescalero Detention Facility, from July
2002 to January 2004, showed 5 of the 15 incidents reviewed involved the same detainee
who, on different occasions, attempted to inflict bodily harm on herself. According to the
detention officer, the inmate was usually arrested for public intoxication and, after
arriving at the detention center, would attempt to slash her wrists or hang herself with
articles of her clothing.

During 2001, an individual detained at the Shiprock facility attempted to hang himself
seven times using articles of clothing or towels left in the cell. According to the facility
director, the officer’s response was quite elementary—if the inmate tries to hang himself
with his socks, take his socks away; if he tries to hang himself with his towel, take the
towel away—until the inmate remained in his cell without any clothing.

Equally disturbing, aside from the actual suicide attempts, is the lack of procedures for
both handling and documenting these events. At Tohono O’odham in Arizona, a 638-
contract facility, the corrections administrator seemed uncertain of the exact number of
suicide attempts, though he stated it was probably around five or six. Likewise, at the
BIA-operated Hualapai facility in Arizona, the chief of police, who is also in charge of
the detention center, could not state the exact number of suicide attempts, but admitted
that there had been “a few instances where inmates tie articles [of clothing] around their
necks.” In addition, at the Hopi facility, the Acting Lead Correctional Officer admitted
there had been several attempts, though she did not know the exact number.

Prisoner Escapes

For the most part, the correctional officers at these facilities convey stories of prisoner
escapes with an air of casual inevitability. In fact, our impression is one of collective
acceptance. In our interviews, correctional officers who discussed escapes also told us
that it is just not possible to prevent inmates from escaping. Since the majority of these
facilities function with only a single officer on duty, officers explained that they simply
cannot “keep an eye” on everyone. In addition, we found that some facilities do not
notify local law enforcement of prisoner escapes. This is not only disconcerting, it is
irresponsible to allow escaped prisoners to freely travel in a community and surrounding




                                              3
areas while the local law enforcement authorities have no information regarding their
escapes.

Physically rundown and deplorably maintained, many of the facilities provide ample
opportunity for escape. At one facility, the chain-link fence surrounding the outdoor
recreation yard was held together and locked by a set of handcuffs because the inmates
had learned the combination to the cipher lock on the gate. While many of the recreation
yards at these facilities are fenced-in and crowned with barbed wire, there seems to be a
universal acceptance among the correctional officers that if an inmate wants to climb
over the fence and escape, they will. For example, at the BIA-operated Mescalero
facility in New Mexico, the male prisoners were allowed to exercise in an outside
confinement area unobserved. This area is surrounded by a 12-foot cyclone fence with
two additional feet of concertina barbed wire at the top. One prisoner, who later stated
that he wanted to see his girlfriend, merely climbed up the cyclone fence, cutting himself
on the concertina wire, and left the premises. The detention officer who was alone on
duty was inside the facility at the time. The prisoner was captured 4 days later and
returned to the jail.

During a visit to the BIA-operated Blackfeet Adult Detention Center in Montana, the
district commander, upon arriving at the facility, told our investigators that he had
personally seen prisoners, unsupervised, milling about outside the front of the facility.
However, the district commander did not seem concerned about this and did nothing to
rectify the situation. At this same facility, in April 2002, a trustee2 escaped and
committed a murder before he was apprehended.

From weakened and deteriorating locks on cell doors to broken windows in inmate
dormitories, the interior of many of these facilities is in extremely poor condition and
therefore does not deter prisoners who set out to escape. For example, the wire-meshed
windows in many of the cells at the White Buffalo Youth Detention Center are loosely
encased in a crumbling wall and, with the application of some pressure, can be easily
removed from their housing. According to the Acting Director at the detention center,
these “removable windows” have, in the past, provided a vehicle of escape for a number
of detained youths. As recently as February 2004, three male inmates escaped through
one of the windows in the day room of the male dormitory, after obtaining two fire
extinguishers and using them to spray the two on-duty correctional officers. Two of the
three youths were apprehended immediately afterward; the third eventually returned on
his own volition.

Perhaps even more disturbing than the actual circumstances and frequency of inmate
escapes at these facilities are the lack of response and importance placed on these
incidents by those working at the facilities, both correctional officers and facility
directors alike. At one detention facility, the director recounted an incident of a juvenile
escaping and concluded by stating that they “haven’t seen him since.” At another
facility, one prisoner managed to escape through the vehicle entrance. Two more
prisoners managed to escape from the courthouse, on two separate occasions. In one of
2
    A trustee is an inmate who is provided special privileges and responsibilities.


                                                        4
these instances, the correctional officers pursued the fleeing inmate up the side of a vast,
rocky precipice above the highway in order to apprehend him. At a third detention
facility, the director simply attributed several prior escapes to poor perimeter security.

We visited the Shiprock Adult Detention Center in January 2004. During interviews with
the correctional officers, one officer, after being asked about any escapes from the
facility, chuckled and said, “Oh yeah, they happen.” She then stated that a prisoner had
escaped from her in June 2003. She explained that the prisoner had escaped on foot and
in ankle-shackles while she was ushering a line of prisoners from the facility to the
courthouse across the courtyard. Since she was the only officer on duty at the time, she
said that she could not pursue the fleeing inmate and leave the other prisoners unattended.
The officer told us that to the best of her knowledge that prisoner had not yet been
apprehended.

Officer Safety

One of the most common problems found while visiting these facilities has been a lack of
staffing. In many cases, having only one correctional officer on duty per shift is not
unusual; it is, in fact, common practice at some of the facilities. Clearly, this is
undesirable. An officer working alone, under any circumstances, is at risk.

At Mescalero, a female correctional officer was working alone when she was confronted
at knife-point by a former inmate who entered the facility through an unlocked door.
Tragedy was averted when the officer locked herself into a detention cell while another
prisoner convinced the intruder to leave the officer alone. A second inmate then
summoned the police.

The San Carlos facility in Arizona has only four correctional officers on staff to operate
what they feel is an overcrowded facility. To address this situation, the facility has
placed a 24-hour “lockdown” on inmates. Although a 24-hour, 7-day a week, lockdown
may be a short-term solution, it could lead to an unsafe and dangerous environment long-
term. At San Carlos, a detention officer on duty has no one for back up if a medical
emergency or conduct problem arises. When an officer is working alone, he or she must
either wait for assistance or act independently, both of which risk placing themselves or
inmates in a potentially life-threatening situation.

At the Blackfeet facility in Montana, staff told us there is “never” more than one
correctional officer on duty. Furthermore, twice a week, the officer on duty also
functions as the facility cook to prepare inmates’ meals, leaving the facility unsupervised
during meal preparation time. At this same facility, one of the dispatchers said that her
husband, a correctional officer at the facility, had been working alone and was attacked
by an inmate. According to the dispatcher, the sound of the other inmates banging on
doors was the only thing that alerted her to the incident and prevented a potential fatality.
Unfortunately, this incident does not appear to be an exceptional case; the BIA district
commander told us, “Every officer here has been assaulted.”




                                              5
Aside from a lack of officers on staff, the current officers at these facilities are, for the
most part, poorly trained. This lack of training not only hinders the officers’ ability to
properly document incidents and follow standard procedures, but also leaves the officers
unprepared to prevent physical harm that may be targeted against them or against
inmates. In fact, one district commander stated, “We’ve never received any training on
how to operate a detention facility.” When asked if his facility followed BIA standards,
the commander quipped, “Most BIA standards can’t be met, so why even try?”

During our visit to the Shiprock facility, we learned that a correctional officer who was
hired in 1999 has not yet attended BIA detention officer training at the Artesia Training
Academy in New Mexico. According to BIA requirements, correctional officers must
attend this training within their first year of employment in order to become certified. At
the Tohatchi facility in New Mexico, we were told that it takes about 2 to 3 years for an
officer to receive training at Artesia. Currently, four employees have not been certified
because they have not had their background investigations completed. One of those
officers has been working at the facility for 3 years. At the Hopi facility, there was only
one officer on duty during our visit. This officer, who was named Acting Lead
Correctional Officer, had been at the facility for 3 years and so far has not attended the
Artesia training academy. Finally, at the Hualapai facility in Arizona, one officer stated
that she had been a correctional officer at the facility for 12 years, and had only recently
received her certification in October 2003.

In addition to officer safety, the safety of the inmates themselves must be considered.
Officers who are improperly trained or who have not undergone thorough background
investigations may become a liability. Recently, a correctional officer working at the
White Buffalo Youth Detention Center was convicted of raping a 17-year-old female
inmate while transporting her from the facility to receive medical treatment.

Recommendations

While this assessment is still underway, we believe these findings are significant enough
to be addressed immediately. By doing so, BIA may be able to prevent further incidents
like those chronicled here. If BIA fails to implement our recommendations, we believe
other life-threatening incidents will be inevitable.

We recommend that:

   1. BIA immediately develops and implements clear reporting protocols for serious
      incidents occurring at all BIA and 638-contract detention facilities. At a
      minimum, all inmate deaths, suicides, attempted suicides, escapes and officer
      safety issues should be reported promptly up an established chain of command
      ending with the Director of Bureau of Indian Affairs.

   2. Any escape from custody should be immediately reported by the detention facility
      to appropriate local or state law enforcement authorities.




                                              6
   3. BIA OLES should immediately respond and conduct a preliminary inquiry to
      determine if a full investigation is warranted on any serious incident reported.
      Their findings, in every case, should then be reported to DOI OLES with a copy
      provided to the Director of Bureau of Indian Affairs.

   4. Detention staffing shortages related to officer safety should be identified by BIA
      and corrected immediately.

While we have every expectation of finding additional serious incidents, our final report
will also provide the Department with recommendations regarding funding, detention
standards and policies, detention facility maintenance, health care and social services at
the detention facilities, and training and hiring practices of detention personnel.




                                             7
Attachment 1
        8
                            Issues Relevant to Escapes and Officer Safety




Tohono O’odham, AZ

Handcuffs are used because inmates know the
combination.




                                                Hopi, AZ

                                                Door handle falls off when used.




                                                                                            Attachment 2
 White Buffalo, MT

Wire-meshed windows in a crumbling wall.




                                                                                   Page 1
White Buffalo, MT
                                                  9
                                                            San Carlos, AZ

                                                            Gates left open during inmate transfer.




San Carlos, AZ




                                                                                                                                     Attachment 2
                                                            Tohono O’odham, AZ
Unable to see into cells due to scratched Plexiglas.
                                                            Camera for high-risk inmates in isolation cell faces ceiling.




                                                                                                                            Page 2
                                                       10
Tohono O’odham, AZ              Tohono O’odham, AZ

Overcrowded female cell.        Female inmates sleep on floors due to lack of bed space.




                                                                                                    Attachment 2
                                                                                           Page 3
                           11
